           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       IMPLEMENTATION OF
  WORKERS’ COMPENSATION IN TITLE II
        REDESIGN RELEASE 3

     June 2006     A-14-06-16049




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   June 15, 2006                                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Implementation of Workers’ Compensation in Title II Redesign Release 3
        (A-14-06-16049)


        OBJECTIVE
        The objective of our review was to assess whether the changes to the Workers’
        Compensation portion of the Title II Initial Claim applications and the Post-Entitlement
        System made in the Title II Redesign Release 3 project worked as intended.

        BACKGROUND

        The Social Security Act (the Act) provides that when a Title II 1 disability insurance
        beneficiary under age 65 also receives public disability benefits, which includes
        Workers’ Compensation, the disability insurance benefit may be reduced. 2 An offset for
        concurrent receipt of Workers’ Compensation was contained in the original 1956 Social
        Security disability program, eliminated in 1958, and reinstituted in 1965. 3 The Act
        requires that disability benefits be reduced when the worker is also eligible for periodic
        or lump-sum Workers’ Compensation payments, so that the combined amount of
        Workers’ Compensation and Social Security disability benefits do not exceed 80 percent
        of the worker’s average current earnings. 4 The combined payments after the reduction,
        however, will never be less than the amount of Social Security disability benefits before
        the reduction. 5



        1
            Federal Old-Age, Survivors, and Disability Insurance Benefits.
        2
            The Social Security Act § 224, 42 U.S.C. § 424a.
        3
         Reno, Virginia; Williams, Cecili Thompson; Sengupta, Ishita, “Workers’ Compensation, Social Security
        Disability Insurance, and the Offset: A Fact Sheet,” Social Security Bulletin, Vol. 65 No. 4, 2003/2004,
        (May 2005) p. 3.
        4
            42 U.S.C. § 424a.
        5
            Id.
Page 2 - The Commissioner


Previous audits performed by the Social Security Administration’s (SSA) Office of the
Inspector General (OIG) revealed problems and vulnerabilities in the calculation and
management of Title II cases involving Workers’ Compensation. The causes of the
problems revealed were due to human errors, such as: (1) claims authorizers not
properly verifying Workers’ Compensation case information; (2) calculation errors;
(3) beneficiaries not providing complete Workers’ Compensation information to SSA;
and (4) the need for more staff training. OIG recommendations were directed toward
improving the process, such as: (1) strengthening internal controls; (2) increasing front-
end reviews; (3) reducing back-logged Workers’ Compensation cases; (4) automating
manual processes; (5) verifying Workers’ Compensation information to be input by
claims authorizers; and (6) strengthening training.

Title II System Redesign

SSA implemented Title II Redesign Release 3 (Release 3) in June 2004 to improve the
Title II Initial Claim applications and Post-Entitlement System processing, including
Workers’ Compensation. SSA's goal was to expand business automation, reduce
manual tasks, improve the quality of the data stored on the master records, and reduce
the number of exceptions to be worked by program service center (PSC) technicians.
In Release 3, Workers’ Compensation processes were streamlined to reduce manual
actions and the Master Beneficiary Record (MBR) was expanded to include more
Workers’ Compensation information.

RESULTS OF REVIEW
Our review found that the system calculated offset amounts as intended. Additionally
users were satisfied with a number of Workers’ Compensation enhancements made in
Release 3, such as:

   •   elimination of an additional step previously required to trigger Workers’
       Compensation transactions,
   •   widely accessible common screens,
   •   expanded information on the MBR,
   •   automation of some manual actions, and
   •   availability of more electronic documentation about the client.

However, our review found a significant number of exceptions were still produced that
require manual processing by PSC staff, and users would like Workers’ Compensation
notices improved.
Page 3 - The Commissioner


Redesigned System Calculated Offset Correctly

The Title II system accurately processed the Workers’ Compensation transactions and
computed the expected offset results for the scenarios we tested. We tested
61 Workers' Compensation transactions, consisting of 52 initial claims and
9 post-entitlement actions. Based on our analysis, the 61 scenarios we selected for
testing represented the possible variations of Workers’ Compensation transactions for
which an offset amount is calculated in the Title II system. We tested transactions from
November 2005 through February 2006. 6 Our results consisted of 116 beneficiaries
whose Title II benefit payments were totally offset, partially offset, or not offset, as
shown in the table below. (For additional information about our scope, methodology
and testing results, see Appendix B.)

                     Summary Table: Workers’ Compensation Scenarios Tested
                                                                  Offset             Offset Not
                                  Total
        Type of Action                                                               Computed
                                Scenarios                  Computed Correctly        Correctly
                                               Number
                                                                                52       0
                                               holder

    Initial Claims                    52       Auxiliary                        50       0
                                               Number
                                                                                 9       0
                                               holder
    Post-entitlement
    Actions                            9       Auxiliary                         5       0
                                               Number
                                                                                61       0
                                               holder
    Total Scenarios                   61
                                               Auxiliary                        55       0
                                               Total                        116          0


Because of the accuracy of the systems-calculated offset amounts, SSA should
continue to automate as many of the Workers’ Compensation actions currently excluded
from automated processing as is cost effective. An example of a case where the
Workers’ Compensation action must be processed manually is when a child auxiliary is
simultaneously entitled on more than one record. The Workers' Compensation screens
do not allow Agency staff to input the change in the maximum benefit payable. The
modified maximum benefit payable data is required to ensure the offset amount is
calculated correctly by the Title II system.

SSA staff we interviewed in PSCs, field offices, and headquarters stated they would like
for the system to handle excluded cases because these cases are labor intensive and
subject to errors. The President's 2007 budget includes a proposal to simplify the
Workers’ Compensation offset computation. We think that, if enacted, implementation


6
    Testing took place in the Agency’s Title II validation environment.
Page 4 - The Commissioner


of this proposal should improve the Agency’s use of administrative resources and
reduce errors in Workers’ Compensation transaction processing.

Significant Number of Exceptions Produced

PSC staff must manually process Workers’ Compensation exceptions produced by the
Title II system and there are a significant number of these exceptions. Based on
Release 3 statistics, 44.1 percent of the input Workers’ Compensation actions
processed in 2004 ended in a system exception and 41.5 percent processed in 2005
ended in a system exception. 7 Additional costs associated with manual processing
result when system exceptions occur. One of the stated goals in the Project Scope
Agreement for Release 3 was to reduce the number of exceptions to be worked by PSC
technicians by 50 percent.

Exceptions usually result when the system detects something is inconsistent with either
the existing or attempted entry of new data on the MBR. We understand from Agency
staff that the complex nature of Workers’ Compensation transactions causes more
exceptions to occur than for most other types of Title II actions. The Agency should
continue to enhance the Title II system to reduce the number of system exceptions
generated.

Users Would Like to See Notices Enhanced

Users we interviewed identified Workers’ Compensation notices as an area of the
redesigned system that should be improved. 8 A concern with Release 3 notices
reported by the users was that incomplete Workers’ Compensation information is
provided to clients. Inadequate notices result in Agency staff spending additional
workyears following up with clients to provide them with additional claims information.

After Release 3, the Agency formed a Title II collaborative workgroup to improve
communication between components about notice issues and to avoid notice problems
in the future. The workgroup developed recommendations to improve notices. For
example, there was concurrence that an ongoing review of production notices was
needed. Also, there was agreement by the workgroup that the means of tracking notice
errors and deficiencies could be improved.

The Agency’s Project Resource Guide for systems development lifecycle guidance
requires the validation of software with user acceptance before implementation, which

7
  According to statistics obtained from SSA’s Office of Retirement and Survivors Insurance Systems web
site, in Calendar Year 2004 after the Title II Redesign, 32,158 out of 72,842 Workers’ Compensation
post-entitlement actions entered through the Interactive Computation Facility ended in a system
exception. In Calendar Year 2005, 48,967 out of 117,921 transactions ended in a system exception. The
number of manual Workers’ Compensation actions processed directly through the Manual Adjustment
Credit and Award Data Entry System by PSC staff is not included in these statistics.
8
 A notice is a letter sent to a client to explain any decision made on the client’s behalf. Notices are
required for any appealable decision, including initial determinations and post-entitlement actions.
Page 5 - The Commissioner


includes notices software. However, SSA staff we interviewed believe that they needed
more time to adequately validate notices in Release 3. In their opinion, they did not
have enough time to validate the more difficult cases, while time was available to
validate the easier cases. According to Agency managers, notices are usually validated
last after other systems changes are made and validated. Thus, when project deadlines
are set and projects are behind schedule, sufficient time is not always available for
validating notices. The limited time to validate notices resulted from moving Agency
personnel working on Release 3 to implement systems required to administer the new
Medicare legislation. As a result, numerous emergency fixes were released to the
production environment to resolve some of the notice problems and some notice
problems still remain.

The Agency should allow sufficient time to validate notices in future software releases to
ensure they meet the users’ requirements. Additionally, the Title II collaborative
workgroup should continue to meet regularly and obtain feedback from operational
users, taking necessary steps to address their concerns about system-generated
notices.

CONCLUSION AND RECOMMENDATIONS
The Title II Redesign Release 3 software provided a number of enhancements to
streamline the processing of Workers’ Compensation claims by SSA staff. Release 3
accurately computed and processed the beneficiaries’ offset amounts for each case we
tested. However, a significant number of Workers’ Compensation exceptions are still
produced requiring action by PSC staff, and Workers’ Compensation notices need
improvement. To assist the Agency in achieving its strategic objective of improving
service through technology and preventing improper payments, we recommend SSA:

   1. Automate as many types of Workers’ Compensation actions currently excluded
      from automated processing as SSA determines is cost effective.

   2. Work to enhance the Title II system to reduce the number of exceptions
      generated for PSC action.

   3. Obtain feedback from operational users and take necessary steps to address
      their continuing concerns about system-generated notices.

   4. Ensure that cross-component coordination continues related to Title II notice
      issues and that problems are resolved timely as identified.

   5. Allow adequate time to validate notices in future software releases to ensure they
      meet the users’ requirements.
Page 6 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the text of SSA’s
comments.




                                            S
                                            Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology and Test Results

APPENDIX C – Background

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
MBR         Master Beneficiary Record
OIG         Office of the Inspector General
PSC         Program Service Center
Release 3   Title II Redesign Release 3
SSA         Social Security Administration
The Act     Social Security Act
                                                                          Appendix B

Scope, Methodology and Test Results
We conducted our review between November 2005 and February 2006 in Baltimore,
Maryland. The principal entity audited was the Social Security Administration’s (SSA)
Office of Retirement and Survivors Insurance Systems under the Deputy Commissioner
for Systems. We conducted our audit in accordance with generally accepted
government auditing standards.

To meet our objective, we:
   •   reviewed applicable criteria;
   •   reviewed systems documentation;
   •   interviewed SSA staff involved in the software development effort, (Office of
       Systems, Office of Operations and Office of Disability and Income Security
       Programs);
   •   interviewed users from the Office of Operations, program service centers and
       field offices; and
   •   tested Title II Workers’ Compensation scenarios in the Title II validation system
       environment.

To determine whether the changes to Workers’ Compensation made with the Title II
Redesign Release 3 (Release 3) project worked as intended, we tested the Title II
System’s calculation of Workers’ Compensation offsets. We tested scenarios in SSA’s
systems validation region from November 2005 through February 2006. Specifically,
we developed test scenarios in four categories: 1) claimants with dependents,
2) claimants without dependents, 3) claimants who received a lump-sum award with
dependents, and 4) claimants who received a lump-sum award without dependents.

We tested a total of 61 scenarios, consisting of 52 initial claims and 9 post-entitlement
actions. For initial claims processes, our results consisted of 102 beneficiaries whose
Title II benefit payments were totally offset, partially offset, or not offset (see Table 1).
For post-entitlement actions, our results consisted of 14 beneficiaries whose Title II
benefit payments were totally offset, partially offset, or not offset (see Table 2). Based
on our analysis, the 61 scenarios we selected for testing represented the possible
variations of Workers’ Compensation transactions for which an offset amount is
calculated in the Title II system. Based on the scenarios, we independently calculated
offset results, and compared the results to the computations made by the Title II
System, noting any variances.




                                             B-1
             Table 1: Workers’ Compensation Initial Claim Scenarios Tested
                                                         Offset               Offset Not
                           Total
   Type of Action                                                             Computed
                         Scenarios                 Computed Correctly         Correctly
Number Holders                       Number
                                                                         15      0
Receiving Periodic                   Holders
                            15
Payments With
Auxiliaries                          Auxiliaries                         30      0
Number Holders                       Number
Receiving Periodic                   Holders
                            16                                           16      0
Payments Without                     without
Auxiliaries                          auxiliaries
Number Holders                       Number
                                                                         10      0
Receiving Lump-Sum                   Holders
                            10
Payment With
Auxiliaries                          Auxiliaries                         20      0
Number Holders                       Number
Receiving Lump-Sum                   Holders
                            11                                           11      0
Payment Without                      without
Auxiliaries                          auxiliaries
                                     Number
                                                                         52      0
                                     Holders
Total Initial Claim         52
                                     Auxiliaries                         50      0
                                     Total                              102      0




                                          B-2
            Table 2: Workers’ Compensation Post-Entitlement Scenarios Tested
                                                        Offset              Offset Not
                            Total
       Type of Action                                                       Computed
                          Scenarios               Computed Correctly        Correctly
Periodic Payment
                              2       Number holder                    2        0
Change
                              1       Number holder                    1        0
Payment Ended
Lump-Sum Payment
                              1       Number holder                    1        0
Received
                                      Number holder                    1        0
Auxiliary Coming Off          1
Record                                Auxiliary                        1        0
Additional Federal
                              1       Number holder                    1        0
Payment Received
                                      Number holder                    1        0
Auxiliaries Added to          1
Record – Lump-Sum                     Auxiliary                        2        0
                                      Number holder                    1        0
Auxiliaries Added to          1
Record – Periodic                     Auxiliary                        2        0
Payment Started               1       Number holder                    1        0
                                      Number holder                    9        0
Total Post-Entitlement        9       Auxiliary                        5        0
                                      Total                            14       0


The following versions of Title II software were tested:

   •     Modernized Claims System, Version ICR4.2
   •     Interactive Computation Facility, Version MMA2.2
   •     Master Beneficiary Record, Version 14.1
   •     Title II Rates, Version MMA2.2
   •     Workers’ Compensation Data File, Version R1.




                                              B-3
                                                                                   Appendix C

Background
Offset Provision and Lump-Sum Settlement Provision

A Social Security Bulletin article 9 described the Workers’ Compensation offset provision
as follows:

    The intent of the Workers’ Compensation offset provision is to ensure that the
    combined benefits from Workers’ Compensation and Social Security are not
    excessive. The offset of Disability Insurance benefits applies to disabled workers
    under the age of 65 and their families. Benefits for a workers’ spouse or dependent
    children are offset before the offset is applied to the workers’ benefit. Under the
    1965 law, the Social Security disability benefit will not be reduced if the State
    Workers’ Compensation law or plan provided for a reverse offset (a reduction of the
    Workers’ Compensation benefit of a worker also receiving Disability Insurance).

    The Omnibus Budget Reconciliation Act of 1981 (Public Law 97-35) ended the
    option for additional states to adopt reverse offsets. It also extended the Social
    Security disability offset to apply to certain public disability benefits paid by federal,
    state, or local governments. In particular, it applies to disability benefits that are
    earned in employment that is not covered by Social Security—for example, in jobs
    covered by the California Public Employees' Retirement System and not by Social
    Security. At the time of the 1981 legislation, 16 States and Puerto Rico had reverse
    offset statutes, which remain today.

    When a Workers' Compensation law provides for periodic payments but permits a
    lump-sum settlement that discharges the liability of the insurer or the employer, the
    settlement is subject to the offset. In this case, the lump-sum is prorated to reflect
    the monthly rate that would have been paid had the lump-sum award not been
    made. Medical and legal expenses incurred by the worker in connection with
    Workers' Compensation may be excluded when computing the offset.

Title II Redesign Release 3 Enhancements to Workers’ Compensation Processing

Before Release 3, user inputs made to the Workers’ Compensation computation facility
had to be processed in a post-entitlement on-line system to be adjudicated. Because of
this, a technician had to go into the on-line system to adjudicate previously keyed
Workers’ Compensation actions and could possibly have missed taking this step.

9
 Reno, Virginia; Williams, Cecili Thompson; Sengupta, Ishita, Workers’ Compensation, Social Security
Disability Insurance, and the Offset: A Fact Sheet, Social Security Bulletin, Vol. 65 No. 4, 2003/2004,
(May 2005) p. 3.

                                                   C-1
Release 3 eliminated this step since adjudication of Workers’ Compensation
transactions can now take place using the Workers’ Compensation computation facility.

Release 3 also included the implementation of an on-line operation that eliminated the
need to create a paper form for use by program service center (PSC) staff to process
complex Workers’ Compensation actions manually. Instead, PSC staff can now access
the on-line operation and use data previously keyed to develop the manual cases
excluded from automated processing. An example of a case where the Workers’
Compensation action must be processed manually in a PSC is when a child auxiliary is
simultaneously entitled on more than one record.




                                         C-2
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY


MEMORANDUM


Date:     June 2, 2006                                                         Refer To: S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     Larry W. Dye /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, "Implementation of Workers’ Compensation
          in Title II Redesign Release 3” (A-14-06-16049)--INFORMATION

          We appreciate OIG’s efforts in conducting this review. Our comments on the draft report are
          attached.

          Please let me know if you have any questions. Staff inquiries may be directed to
          Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

          Attachment:
          SSA Comments




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “IMPLEMENTATION OF WORKER’S COMPENSATION IN TITLE II
REDESIGN RELEASE 3 (A-14-06-16049)

Thank you for the opportunity to review and provide comments on this OIG draft report. As
noted in the draft report, the Social Security Administration (SSA) implemented Title II
Redesign Release 3 (Release 3) in June 2004 to improve the Title II Initial Claim applications
and Post-Entitlement System processing, including Workers’ Compensation (WC) case
processing. Our goal continues to be to expand business automation, reduce manual tasks,
improve the quality of the data stored on the master records, and reduce the number of
exceptions to be worked by program service center (PSC) technicians. In Release 3, WC
processes were streamlined to reduce manual actions and the Master Beneficiary Record (MBR)
was expanded to include more WC information. We continue to explore cost-effective
alternatives for enhancing automated processing of WC cases.

We believe most of the processing exceptions occurring in WC cases are not related to WC
functionality that is not supported in the Title II system, but rather are primarily the result of
other factors such as the involvement of dual entitlement, the fact that the action being taken
involves more than the 4 years of retroactivity handled by the Title II system, or that the Master
Beneficiary Record (MBR) for the transaction in question has errors on it that prevent automated
processing. However, we agree we should continue work to increase the processing capabilities
of the Title II system and reduce the number of manual transactions our operations components
must perform.

Recommendation 1

Automate as many types of WC actions currently excluded from automated processing as SSA
determines is cost effective.

Comment

We agree. Considerable progress has been made in reducing the number of WC processing
exceptions with each new release to the Title II Redesign. We are also exploring the cost-
effectiveness of further enhancing the Title II system to reduce the number of WC processing
exceptions. As part of this effort, we are evaluating recommendations for enhancing the
Interactive Computation system.

Recommendation 2

Work to enhance the Title II system to reduce the number of exceptions generated for PSC
action.




                                               D-2
Comment

We agree. See response to recommendation 1.

Recommendation 3

Obtain feedback from operational users and take necessary steps to address their continuing
concerns about system-generated notices.

Comment

We agree with the need for obtaining input from operational users and continuing cross-
component coordination to enhance our beneficiary notices. To promote this coordination, we
are scheduling quarterly meetings of representatives from our operations, policy, and systems
offices. Agenda items include topics such as the effect of legislation on notices, the notice
clearance process, and outstanding notice issues. We believe such coordination will facilitate
early recognition and resolution of notice issues.

Recommendation 4

Ensure that cross-component coordination continues related to Title II notice issues and that
problems are resolved timely as identified.

Comment

We agree. See response to recommendation 3.

Recommendation 5

Allow adequate time to validate notices in future software releases to ensure they meet the users'
requirements.

Comment

We agree. We will allow the appropriate amount of time to validate notices for future software
releases.

[In addition to the comments above, SSA provided technical comments which have been addressed in
this report.]




                                               D-3
                                                                    Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technology Audits Division, (410) 965-9702

   Al Darago, Audit Manager, Application Controls, (410) 965-9710


Acknowledgments

In addition to those named above:

   Deborah Kinsey, Auditor-in-Charge

   Ronald Anderson, Auditor

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number A-14-06-
16049.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
